                            Office of the Inspector General

November 22, 1999

John R. Dyer
Principal Deputy Commissioner
 for Social Security

Inspector General



Selected Procedures Used in the Social Security Administration’s Asbestos

Management Program for Its Main Complex (A-13-98-91026)



Attached is a copy of our subject final report. Our objective was to review the adequacy

of selected procedures used to administer the Social Security Administration’s Asbestos

Management Program.

.

You may wish to comment on any further action taken or contemplated on our

recommendations. If you choose to offer comments. please provide them within

60 days of the date of this memorandum. If you wish to discuss the final report, please

call me or have your staff contact Daniel R. Devlin, Acting Assistant Inspector General

for Audit, at (410) 965-9700.





                                               James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



   SELECTED PROCEDURES USED IN
       THE SOCIAL SECURITY
    ADMINISTRATION’S ASBESTOS
    MANAGEMENT PROGRAM FOR
        ITS MAIN COMPLEX

 November 1999      A-13-98-91026



AUDIT REPORT

                   E X E C U T I V E S U M M A R Y


OBJECTIVE

Our objective was to review the adequacy of selected procedures used to administer
the Social Security Administration’s (SSA) National Asbestos Management Program
(Program).

BACKGROUND

Federal agencies are required to operate safety and health programs that comply with
all health and safety standards under section 19 of the Occupational Safety and Health
Act of 1970, as amended (29 U.S.C. § 668). Executive Order 12196, Occupational
Safety and Health Programs for Federal Employees, requires each agency to ensure
prompt abatement of unsafe or unhealthy working conditions. When an agency cannot
promptly abate such conditions, it shall develop an abatement plan setting forth a
timetable for the abatement and a summary of interim steps to protect employees.
Agencies are also required to have qualified personnel perform periodic inspections of
workplaces using equipment designed to detect environmental hazards, such as asbestos.

In response to the Executive Order, SSA established its Program. The Office of
Facilities Management (OFM) oversees this Program for managing asbestos containing
building materials (ACBM). The Program calls for continuing inspection and evaluation
of facilities and equipment. OFM’s Office of Environmental Policy and Automation
Resources (OEPAR) developed standard operating procedures for asbestos containing
materials for each building in SSA’s main complex.

Environmental Protection Agency guidelines1 recommend that a “work control/permit"
system be used in the control of new construction or renovation work to avoid disturbing
ACBM. SSA’s system requires the person requesting work to submit a work order to the
SSA Office of Main Complex Management (OMCM). Work orders are submitted to the
OMCM Safety and Occupational Health Specialist responsible for reviewing and
approving the work orders.

RESULTS OF REVIEW

We determined that SSA had implemented the procedures we selected for review under
the Program. These procedures were developed to ensure that OFM personnel have:



1
 Managing Asbestos in Place: A Building Owner’s Guide to Operations and Maintenance Programs for
Asbestos-Containing Materials, page 15, Work Control/Permit System.



                                                i
  • received appropriate annual asbestos training;

  • been properly fit tested and certified to use a respirator;

  • been medically certified to perform asbestos-related duties;

  • implemented a work order review and approval process; and

  • implemented an Environmental Hotline to address employee concerns.

However, we did note two areas of concern. We found that:

   •	 work sites were not monitored to ensure compliance with standard operating
      procedures for asbestos containment and

   • work order approvals were appropriate, but lacked quality assurance review.

CONCLUSION AND RECOMMENDATIONS

We believe SSA has implemented adequate policies and procedures to administer its
Program. However, we believe adoption of additional controls would further enhance
the Program and ensure adherence to SSA's standard operating procedures for working
in the proximity of ACBM. Therefore, we recommended that:

•	 OMCM Safety and Occupational Health Specialists monitor work sites in the
   proximity of asbestos to ensure strict adherence to standard operating procedures.

•	 OEPAR review OMCM approved work renovation requests to ensure that decisions
   concerning such work orders are appropriate.


SSA COMMENTS

SSA concurred with our findings and reported that action is underway to implement
report recommendations. Appendix B contains the complete text of SSA's comments.




                                            ii
                        T A B L E O F C O N T E N T S


                                                                                                              Page

EXECUTIVE SUMMARY......................................................................................... i

INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW.......................................................................................... 4

    WORK SITES WERE NOT MONITORED TO ENSURE COMPLIANCE

    WITH STANDARD OPERATING PROCEDURES ............................................ 4


    WORK ORDER APPROVALS WERE APPROPRIATE BUT LACKED

    QUALITY ASSURANCE REVIEW .................................................................... 5


CONCLUSION AND RECOMMENDATIONS......................................................... 7

APPENDICES
APPENDIX A – Random Sample – Review of Work Orders

APPENDIX B – SSA's Comments

APPENDIX C – Major Contributors to This Report

APPENDIX D – SSA Organizational Chart

                             I N T R O D U C T I O N


OBJECTIVE

Our objective was to review the adequacy of selected procedures used to administer
the Social Security Administration’s (SSA) National Asbestos Management Program
(Program).

BACKGROUND

Federal agencies are required to operate safety and health Programs that comply with
all health and safety standards under section 19 of the Occupational Safety and Health
Act of 1970, as amended (29 U.S.C. § 668). Executive Order 12196, Occupational
Safety and Health Programs for Federal Employees, requires each agency to ensure
prompt abatement of unsafe or unhealthy working conditions. When an agency cannot
promptly abate such conditions, it shall develop an abatement plan setting forth a
timetable for the abatement and a summary of interim steps to protect employees.
Agencies are also required to have qualified personnel perform periodic inspections of
workplaces using equipment designed to detect environmental hazards, such as asbestos.
In addition, agencies are required to operate an occupational safety and health
management information system and submit an annual report to the Secretary of Labor
that includes an evaluation of all phases of its Occupational Health and Safety Program.

One known environmental hazard is the presence of asbestos in work areas. According
to the United States Environmental Protection Agency (EPA), "Asbestos is known to
cause cancer and other diseases if asbestos fibers are inhaled into the lung and remain
there."2 Those diseases include asbestosis3 and mesothelioma.4 EPA also cautions
that, while asbestos levels in buildings in general are much lower than asbestos levels
in industrial workplaces where more serious health effects have been observed, it is still
important to minimize employee exposure to asbestos fibers.

In response to the Executive Order and Occupational Safety and Health Administration
(OSHA) requirements,5 SSA established its Program. The Office of Facilities
Management (OFM) oversees this Program for managing asbestos containing building
materials (ACBM). The Program calls for continuing inspection and evaluation of
facilities and equipment. It also requires a work protection program that provides for

2
  An Advisory to the Public on Asbestos in Buildings: The Facts About Asbestos in Buildings, 1991, page
3
  Asbestosis is a lung disease caused by inhaling asbestos particles.
4
  Mesothelioma is a cancer of the lining of the lung or abdominal cavities.
5
  Managing Asbestos in Place: A Building Owner’s Guide to Operations and Maintenance Programs for
Asbestos-Containing Materials, page 15, Work Control/Permit System.


                                                   1

engineering controls; personnel exposure monitoring; medical surveillance; respiratory
protection; and personal protection, such as protective clothing.

OFM’s Office of Environmental Policy and Automation Resources (OEPAR) developed
standard operating procedures to prevent any disturbance of ACBM in each building in
SSA's main complex. The Office of Main Complex Management (OMCM) is responsible
for overseeing asbestos abatement and managing asbestos in SSA’s main complex,
which includes the Altmeyer, Operations, Annex, West High/Low Rise, East High/Low
Rise, and Supply Buildings located in Woodlawn, Maryland. Outside contractors, as well
as SSA employees, are required to adhere to all of OEPAR’s standard operating
procedures without exception. OMCM is responsible for ensuring adherence to OEPAR's
standard operating procedures for SSA's main office complex.

Because the EPA guidelines6 recommend that owners have an initial building inspection
by a trained, experienced, and qualified inspector, OFM had all buildings in SSA’s main
complex independently surveyed at the onset of its asbestos Program. The independent
surveyor recorded the location, type, and condition of asbestos in each of the main
complex buildings. OMCM has SSA's main complex buildings resurveyed every 3 years.

The EPA guidelines7 also recommend that a "work control/permit" system be used in the
control of new construction or renovation work to avoid disturbing ACBM. SSA’s system
requires the person requesting work to submit a work order to OMCM. Work orders are
submitted to the OMCM Safety and Occupational Health Specialist responsible for
reviewing and approving the work orders. The Safety and Occupational Health
Specialist determines the appropriateness of the work order by reviewing the
information on the work order and comparing it with asbestos survey results, performs
visual inspection of the proposed work area, and/or collects bulk samples for laboratory
analysis when necessary. The Safety and Occupational Health Specialist makes one of
three determinations: (1) there is no ACBM in the area and the work order is approved;
(2) the work to be performed is located in the proximity of ACBM and standard operating
procedures must be followed at the work site; or (3) the work site is in an area that
contains asbestos and the asbestos must be abated by an outside contractor before the
work order is approved.

SCOPE AND METHODOLOGY

Our objective was to review the adequacy of selected procedures of SSA’s Program.
Because we do not possess the technical expertise in asbestos inspection or removal,
we did not: (1) evaluate work performed in the proximity of work areas containing
ACBM; (2) inspect sites where ACBM had been abated; or (3) inspect the location and
condition of existing ACBM in SSA's main complex. We performed work at SSA’s main
complex in Woodlawn, Maryland, from May through August 1998. We conducted this
6
  Managing Asbestos in Place: A Building Owner's Guide to Operations and Maintenance Programs for
Asbestos-Containing Materials, page 7, Building Inspection and Assessment.
7
  Managing Asbestos in Place: A Building Owner’s Guide to Operations and Maintenance Programs for
Asbestos-Containing Materials, page 15, Work Control/Permit System.


                                                2

audit in accordance with generally accepted government auditing standards and
included:

•	 reviewing a randomly selected sample of work orders approved by the Safety and
   Occupational Health Specialist from October 1, 1997, to May 31, 1998, to determine
   whether work orders were compared to independent building surveys and whether
   the appropriate guidelines were applied during the work order review and approval
   process;

•	 reviewing SSA's Environmental Hotline log of entries made between July 1997 and
   July 1998 to identify the type and number of asbestos complaints received and the
   action taken by OEPAR to respond or refer complaints to the appropriate staff;

•	 reviewing documentation to determine whether OFM personnel have completed the
   required annual asbestos training, were properly fit tested and certified to use a
   respirator, and medically approved to perform asbestos-related duties by SSA's
   qualified contractor who is licensed by the State of Maryland as an Occupational
   Health Physician;

•	 reviewing Executive Order 12196, OSHA policy, applicable EPA and General
   Services Administration (GSA) guidelines, SSA Administrative Instructions Manual
   System Chapter 13, OEPAR’s standard operating procedures and other applicable
   Federal and State guidelines;

•	 interviewing SSA personnel responsible for establishing and administering the
   policies and procedures to oversee the Program; and

•	 interviewing personnel at the General Accounting Office (GAO) and GSA, reviewing
   their standard operating procedures for asbestos management, and benchmarking
   SSA's policies and procedures against the GAO and GSA procedures.




                                          3

                  R E S U L T S O F R E V I E W


We determined that SSA had implemented the procedures we selected for review under
the Program. These procedures were developed to ensure that OFM personnel have:

• received appropriate annual asbestos training;

• been properly fit tested and certified to use a respirator;

• been medically certified to perform asbestos-related duties;

• implemented a work order review and approval process; and

• implemented an Environmental Hotline to address employee concerns.

However, we did note two areas of concern. We found that:

•	 work sites were not monitored to ensure compliance with standard operating
   procedures for asbestos containment and

• work order approvals were appropriate, but lacked quality assurance review.

WORK SITES WERE NOT MONITORED TO ENSURE COMPLIANCE
WITH STANDARD OPERATING PROCEDURES

We are concerned that ACBM violations may occur and may not be detected by OMCM
because work sites are not being monitored to ensure compliance with OEPAR’s
standard operating procedures. OMCM recognized the need to establish and
implement an oversight Program for work performed in accordance with asbestos
standard operating procedures. OMCM staff informed us that they were revising
standard operating procedures and developing plans that would require the Safety and
Occupational Health Specialists to begin random work site visits. The plans include
integrating these additional responsibilities into OMCM's existing duties and
responsibilities.

We are concerned because of two incidents that were brought to our attention during
our review. In each incident, OMCM’s standard operating procedures had been
violated. In one incident, an SSA employee removed ceiling tiles without using the
proper respiratory protection or containment procedures to reduce risk of exposure to
himself and other employees. We were informed that all OFM employees met to
address this violation of OEPAR’s standard operating procedures. As a result of the
meeting, OFM determined that employees did not appropriately apply the standard


                                             4

operating procedures to their work. OFM addressed the issue by appointing a work
group to review and revise the standard operating procedures used by employees. In
addition, the Associate Commissioner for Facilities Management issued a memorandum
to employees who process work order requests and to those who review work orders
and perform operations/maintenance stating, "Everyone is REQUIRED to adhere to the
standard operating procedures attached to the work orders. . . ." The memorandum
also advised employees who require guidance on the use of the standard operating
procedures prior to performing their duties to ". . . consult the Safety and Occupational
Health Specialist identified on the Asbestos Review Sheet. If the Safety and
Occupational Health Specialist is not available, you [the employee] should consult the
immediate supervisor for direction."

A second incident involved an outside contractor who, while installing cable in the
Annex building, disregarded OEPAR’s standard operating procedures and drilled a hole
in a ceiling tile within the 10-foot perimeter of the building's exterior wall. SSA's
standard operating procedures prohibit ceiling work within 10 feet of the building's
perimeter because the beams around the building’s perimeter are covered with spray-
applied asbestos. As a result of an OFM investigation, OFM now requires the Office of
Acquisition and Grants to include in all contracts a provision that any contractor's
employee identified as violating SSA standard operating procedures will be removed
from SSA property and not allowed to return.

While we found no evidence that the violations resulted in employee exposure to
asbestos, these incidents indicate the need for additional monitoring of work sites in the
proximity of ACBM. Our benchmarking of SSA's asbestos management procedures
with GSA and GAO supports the need to monitor work sites. We found that GAO and
GSA consider the monitoring of work areas in and around ACBM so essential they have
contracted with outside vendors to constantly monitor areas in their buildings where
ACBM is located. The contractors not only ensure workers are adhering to
environmental contract requirements, but also that a work permit is secured from their
ACBM management office for all work in progress. We believe that adoption of a
procedure for OMCM to monitor work being conducted in the proximity of ACBM, such
as currently in place at GSA and GAO, will enhance SSA’s Program.

WORK ORDER APPROVALS WERE APPROPRIATE BUT LACKED
QUALITY ASSURANCE REVIEW

According to SSA’s manual, The Program to Control Asbestos-Containing Materials
(ACM) for the Social Security Administration, the Headquarters' work permit system is
". . . the primary tool employed by the Asbestos Section8 to ensure that routine
maintenance and renovation activities do not disturb ACM. . . ." Safety and
Occupational Health Specialists are responsible for reviewing work orders to determine
whether the work site is near ACBM. To facilitate this determination, the Safety and
Occupational Health Specialist compares proposed work sites with asbestos surveys of

8
    Although the Asbestos Section no longer exists, its duties are now the responsibility of OFM.


                                                      5

the main complex, visually inspects the work sites, and/or collects bulk samples for
laboratory analysis when necessary. Depending on the results of these procedures, the
Safety and Occupational Health Specialist makes one of the following three decisions
concerning the approval of the work order.

• If the work site does not contain or is not near ACBM, the work order is approved.

•	 If the work site is in an area containing ACBM requiring abatement, the work order is
   not approved until the necessary abatement work is completed.

•	 If the work site is near an ACBM area not requiring abatement, the work order is
   approved. Appropriate standard operating procedures are attached to the work
   order instructing SSA maintenance personnel or contractor employees on safety
   precautions that are necessary because of the presence of ACBM.

To test these procedures, we took a random sample of 30 of the 413 work orders
(see Appendix A) approved by the Safety and Occupational Health Specialists between
October 1, 1997, and May 31, 1998, to determine the effectiveness of the Safety and
Occupational Health Specialists' processing of the work orders. We compared those
work orders with the buildings' asbestos surveys to determine the correctness of the
Safety and Occupational Health Specialists' approvals. We found that the Safety and
Occupational Health Specialists made the appropriate approval decision in each of the
sample cases. Moreover, in cases where there was ACBM in the work area, OEPAR’s
standard operating procedures were attached to the work orders instructing SSA
maintenance personnel or contractor employees on safety precautions to be taken at
the work site. There were no sample cases where ACBM abatement was required.

During our audit work, we found no evidence that OEPAR conducted a post-approval
evaluation of work orders reviewed and approved by OMCM to ensure they were
correctly processed. The Director of the Division of Environmental Services informed us
that the component's mission requires quality assurance review of the work orders, but
due to priorities, the reviews were not performed. We believe a formal procedure for
periodically reviewing the work orders would provide an appropriate additional control to
ensure that potential risks are identified and that appropriate standard operating
procedures are included with the renovation requests.




                                           6

  CONCLUSION AND RECOMMENDATIONS


We believe SSA has implemented adequate policies and procedures to administer its
Program. However, we believe adoption of additional controls would further enhance
the Program and ensure adherence to SSA's standard operating procedures for working
in the proximity of ACBM. Therefore, we recommend that:

•	 OMCM Safety and Occupational Health Specialists monitor work sites in the
   proximity of asbestos to ensure strict adherence to standard operating procedures.

•	 OEPAR review OMCM approved work renovation requests to ensure that decisions
   concerning such work orders are appropriate.


SSA COMMENTS

SSA concurred with our findings and reported that action is underway to implement the
recommendations. Appendix B contains the complete text of SSA's comments.




                                           7

APPENDICES

                                                                         APPENDIX A



                   RANDOM SAMPLE

               REVIEW OF WORK ORDERS


                      Social Security Administration
              Office of the Inspector General, Office of Audit


                          Unrestricted Attribute Appraisal


          Universe Size                                   413


          Sample Size                                      30


                              Desired Characteristic(s)


          Quality Identified in Sample                     0


          Projected Quantity in Universe                   0


          Percent                                          0.000%


We are 90 percent confident that the maximum possible error rate is 7.25 percent.




                                           B-3

                APPENDIX B


SSA COMMENTS

COMMENTS ON OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“SELECTED PROCEDURES USED IN THE SOCIAL SECURITY
ADMINISTRATION’S ASBESTOS MANAGEMENT PROGRAM”

(A-13-98-91026)


We appreciate OIG’s review of this critical area. We are
pleased that OIG found SSA has implemented adequate policies and
procedures to administer its Asbestos Management Program. We
agree that adopting additional controls would further enhance
this Program. Action is underway to implement the report
recommendations.


Recommendation

The Office of Main Complex Management’s (OMCM) Safety and
Occupational Health Specialists (SOHS) monitor work sites in the
proximity of asbestos to ensure strict adherence to standard
operating procedures.


Comment

We agree that the OMCM specialists should monitor work sites in

the proximity of known asbestos containing building materials

(ACBM) to ensure adherence to standard operating procedures. In

February 1999 OMCM added the standard operating procedures

Oversight Program to its ongoing oversight responsibilities.

The Program was implemented to ensure strict adherence to

standard operating procedures where work has the potential to

disturb ACMB but can be performed in accordance with standard

operating procedures.


Compliance is monitored in accordance with Occupational Safety

and Health Administration regulations at

29 CFR 1926.1101. One hundred percent oversight is performed in

areas that have a greater potential for asbestos disturbance,

i.e., those areas within the 10-foot perimeter in the Altmeyer,

Annex and Operations Buildings, and above the ceiling in the

Supply Building.


In areas with lower degrees of risk, sufficient oversight is

conducted to provide a statistically valid assurance that

standard operating procedures are adhered to. Examples where

lower risk is involved include removal of asbestos-containing

floor tile, removal/replacement of ceiling tile in areas other

than the 10-foot perimeter, and phone installation.



                              B-2

The work files documenting oversight are reviewed on a quarterly
basis, and oversight reports are distributed to appropriate
officials.
Recommendation

The Office of Environmental Policy and Automation Resources
(OEPAR) review OMCM approved work renovation requests to ensure
that decisions concerning such work orders are appropriate.


Comment

We agree. OEPAR will review work renovation requests as
recommended.


Technical Comment


Page 2, second paragraph

The first sentence should be revised. Instead of “...for
containing asbestos for each building...” it should state “to
prevent any disturbance of ACBM in each building...”




                              B-3

                                                                         APPENDIX C


 MAJOR CONTRIBUTORS TO THIS REPORT


Office of the Inspector General

Shirley E. Todd, Director, General Management Audit Division


Carl K. Markowitz, Audit Manager


Thomas P. Tennant, Auditor-In-Charge


Sandra Westfall, Senior Program Analyst


Cheryl Robinson, Writer-Editor, Technical Services


Kimberly Beauchamp, Writer-Editor, Technical Services





For additional copies of this report, please contact the Office of the Inspector General's
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-13-98-91026.
                        APPENDIX D


SSA ORGANIZATIONAL CHART

